SCHONBRUN SEPLOW

HARRIS & HOFFMAN LLP
200 Pier Ave. Suite 226
_ Hermosa Beach, CA 90054 Helen I. Zeldes
Benjamin Schonbrun (310) 717-7373 (310) 399-7040 (fax) Ben Travis
Michael D. Seplow hoffpaul@aol.com Gary Bostwick
Wilmer J. Harris Erwin Chemerinsky*
Paul L. Hoffman *Illinois and
Catherine E. Sweetser Dist. Columbia
Aidan C. McGlaze South Pasadena Office
John C. Washington 715 Fremont eae
£ isin * Harootun South Pasadena, CA 91030
arah L. Dawley (626) 441-4129

(626) 283-5770 (fax)

November 14, 2019 West LA Office

By Electronic Filing 11543 W. Olympic Blvd.
Hon. Scott S. Harris, Clerk Los Angeles. CA 90064
Supreme Court of the United States

One First Street, NE

Washington, DC 20543

Re: Nestlé USA, Inc., Petitioner v. John Doe I, et al., No. 19-416, Vide 19-453

Dear Mr. Harris:

Pursuant to Rule 30.4, Respondents John Doe et al. request an eight day extension of time

to December 12, 2019 to file their Brief in Opposition. The principal basis for this request is that
the undersigned counsel of record’s family members were killed recently, and counsel will be
overseas from November 14th to November 29th attending their funerals and arranging for the
future care of the children of one of these family members.

Before submitting this request, I contacted counsel for petitioner, who informed me that

they consent to the extension. An eight day extension will be adequate to complete the Brief in
Opposition. The same request has been made regarding the consolidated petition by Cargill, Inc.,
and Petitioner Cargill has also consented to this extension.

Respectfully submitted,

Paul Hoffman
Counsel for Respondents

Cc by USPS First Class and Electronic Mail:
Neal Kumar Katyal, Counsel for Petitioner Nestlé U.S.A., Inc.

Hogan Lovells US LLP
555 Thirteenth St., NW
Washington, DC 20004
neal.katyal@hoganlovells.com
